April 30, 2007

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

ROBERT L. OTTO
VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

SUBJECT: Audit Report – Headquarters Cellular Services
         (Report Number IS-AR-07-011)

This report presents the results of our self-initiated audit of the headquarters cellular
services and devices (Project Number 07BG001IS000). Our objective was to determine
the effectiveness of the U.S. Postal Service’s utilization and management of cellular
services and devices managed by headquarters units.

                                     Background
Cellular technology, like other information technology (IT), has advanced rapidly in
recent years. These technologies use analog or digital short-wave signals in
conjunction with nearby transmitters, providing wireless telecommunication capabilities
for subscribers. Pagers, once a “receive only” telecommunications device, now offer
two-way capabilities. Cellular telephones offer a broad spectrum of features such as
paging, text messaging, Internet access, and email; and the ability to capture, store, and
transmit digital images. Cellular broadband cards (using cellular towers) expand the
mobility and functionality of computer devices. In addition, xxxxxxxxxx™ devices offer
wireless email, cellular telephone features, and extended browser capabilities.

The Postal Service, Xxxxxxxxxxxxxxxxxx Xxxxxxxx, located in Raleigh, North Carolina,
administers the national cellular service agreements. Responsibilities for managing and
monitoring cellular services and devices are decentralized and performed by
headquarters, area, district, and facility-level personnel. Each Postal Service entity
determines its individual business requirements for wireless communications.
Headquarters and area offices, in addition to other headquarters facilities, are
responsible for managing and tracking inventories of their cellular devices.
Headquarters Cellular Services                                                                          IS-AR-07-011



Typically, inventory records are managed using spreadsheets, although a few sites use
the Asset Inventory Management System (AIMS).1

At our request, Xxxxxxxxxxxxxxxxxx Xxxxxxxx issued a November 1, 2005, Request for
Action (RFA) notice to area office Information Technology Managers and headquarters
units requesting inventories of active and inactive cellular devices. In addition, U.S.
Postal Service Office of Inspector General (OIG) management followed up with a
memorandum to headquarters’ Postal Career Executive Service (PCES) managers in
November 2005 requesting the same. This audit report utilizes the information obtained
for headquarters pager devices through this RFA and the associated PCES
memorandum.

                             Objective, Scope, and Methodology
Our objective was to determine the effectiveness of the Postal Service’s utilization and
management of cellular services and devices managed by headquarters units. During
our review, the Postal Service awarded a contract to xxxxxxxxxx, Incorporated,
(xxxxxxxxx) to manage and monitor all mobile devices except pagers. As a result, we
revised the original scope of our audit to exclude cell phones, xxxxxxxxxx devices, and
broadband cards, and focused entirely on pagers managed by headquarters units in an
effort to identify cost savings by eliminating unnecessary pagers. We determined we
would wait for the contractor to conduct work over a period of time and assess their
performance at a later date.

To accomplish our objective, we compiled headquarters-related inventories of cellular
devices from the results of the November 1, 2005, RFA and the supplemental OIG
request. Based on responses to the RFA, the universe of pagers managed at the
headquarters level totaled 392.2 We collected, reviewed, and analyzed monthly bills
from October 2005 through November 2006 for 184 of these pagers. We estimated
costs for the remaining 208 pagers based on available billing information.

To determine cost savings for pagers, we analyzed billing information from the four
companies that provided pager services from October 2005 through November 2006.
We calculated the average monthly cost for each pager and applied it against the
percentage telecommunication managers3 agreed they could reduce. To test usage,
we called 199 pagers and left a callback number.4 We determined 184 pagers out of
1
  The AIMS automates the collection of most IT assets and was developed to function as the official repository for
tracking IT assets.
2
  We did not include U.S. Postal Inspection Service pagers in the universe of 392. During our review, the Postal
Inspection Service identified 67 additional pagers not included in our universe.
3
  Xxxxxxxxxxxxxxxxx managers include the Manager, Distributed Computing Environment, and the Program
Manager, Postal Radio Frequencies in Xxxxxxxxxxxxxxxxx Xxxxxxxx. Both managers agreed with our pager
assessments in the previous audit and stated they would like to eliminate 95 percent of all pagers. Any remaining
pagers would be minimal, and could be managed in-house.
4
  OIG auditors would have called additional pagers. However, the Manager, Corporate Information Security,
requested we cease the test because of concerns regarding potential disruptions to operations. In addition, we
discarded the results for 15 pagers because we did not have corresponding invoices.



                                                          2
Headquarters Cellular Services                                                                      IS-AR-07-011



the 199 called were valid. We interviewed pager users who returned our call to ask if
they had multiple devices and whether eliminating their pagers would harm their
productivity. Based on the responses received over the following 7 days, 27 percent
(50 of 184) of pager users returned our call and 73 percent (134 of 184) did not.
However, based on management’s agreement that they could reduce pagers
nationwide by 95 percent, we determined the overall savings accordingly.

We conducted this audit from October 20065 through April 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We assessed the
reliability of the data for 184 of the 392 pagers and determined the information was
sufficiently reliable to meet our audit objective. We discussed our observations and
conclusions with management officials on March 20, 2007, and included their comments
where appropriate.

                                       Prior Audit Coverage
The OIG issued an audit report titled, Audit of Cellular Services (Report Number
IS-AR-07-010, dated March 29, 2007), which indicated the Postal Service could improve
the management of cellular services and devices at field locations/offices. Our audit
showed the Postal Service has opportunities to capture savings at field office locations
by implementing centralized management control practices, performing comprehensive
inventories and needs assessments, and improving inventory and usage review
practices. This would help eliminate unnecessary services and devices in field offices.
Excluding headquarters, we estimated cost savings opportunities for reducing
unnecessary devices (cell phones, xxxxxxxxxxx devices, cellular broadband cards, and
pagers) with a total financial impact of $6.8 million. During the review period, the Postal
Service awarded a contract for managing all cell phones, xxxxxxxxxx devices, and
broadband cards. We made three recommendations to improve controls over
managing and monitoring cellular services and devices, two of which were significant.
Management agreed with the recommendations.

The OIG issued an audit report titled, National Voice Services — Savings Opportunities
(Report Number IS-AR-05-016, dated September 30, 2005), which discussed how the
Postal Service could capture savings by performing a comprehensive inventory and
assessment of local telephone line needs in accordance with existing policy. We
identified costs for unneeded telephone lines with a total financial impact of $9.9 million.
We made five recommendations to improve controls over managing and monitoring
local telephone resources, three of which were significant. Management agreed with all
of our recommendations and completed action on them. Management implemented
specific procedures for disconnecting unneeded lines identified during our audit.

5
  We conducted this audit subsequent to our audit of cellular services (Project Number 05BG020IS000) and used the
information gathered from the November 2005 RFA and the supplemental OIG memorandum to headquarters PCES
managers.




                                                        3
Headquarters Cellular Services                                                                      IS-AR-07-011



Management also established a process for reviewing monthly bills before payment, as
required by Handbook AS-873,6 Xxxxxxxxxxxxxxxxxx Xxxxxxxx, and established a
process to monitor and review telephone line change activity when they deploy new
technology. Postal Service managers created a comprehensive telephone line
inventory and reassessed their local telephone needs. They disconnected over 4,000
telephone lines and reported the overall results to the OIG. We closed the last
recommendation after the Postal Service awarded a contract (xxxxxxxxxxx) to centralize
the management and monitoring of telecommunication services.

                                                  Results
The Postal Service can improve the management of cellular services and devices by
eliminating unused and obsolete pagers, resulting in savings of $122,772 over the next
2 years. The Postal Service has not included pagers in its contract with xxxxxxxxxx to
centralize management and monitoring of telecommunication services and devices;
therefore, management and monitoring of pagers will not be optimized in the same
manner as other cellular services and devices. Maintaining pagers within the Postal
Service inventory will require in-house management and monitoring to continue. As a
result, opportunities exist to capture savings by eliminating unused pagers that are
largely obsolete. We estimate cost savings opportunities for pagers provide a total
monetary impact of $122,772.

Management of Pager Services and Devices

The Postal Service could improve their management of pager services and devices.
Currently, the Postal Service is paying for pagers they no longer need. This is due to
inconsistent cellular management practices and outdated wireless communications
policies. Improving these areas will help identify and reduce costs for pager services
and devices.

Currently, responsibilities for managing and monitoring pager services and devices are
decentralized. Each headquarters unit manages their own inventory and accounting
practices vary for tracking these devices. Typically, each office manages and monitors
their pagers with complete autonomy, which produces inconsistent results. For
example, practices vary for asset tracking, user needs assessments, and invoice
approval. Some offices manage pagers using spreadsheets, while others use the
AIMS. Since the Postal Service did not include pagers in their xxxxxxxxxx contract,
optimization of pagers will not occur unless management takes specific actions.
Continuing the use of pagers will require a separate, in-house system for managing and
monitoring. Maintaining a separate process for pagers would be less efficient and may
lead to confusion and additional waste.


6
 Handbook AS-873, Xxxxxxxxxxxxxxxxx Xxxxxxxx, Section 8-8 provides the specific policies currently in place, dated
October 2004 (updated with Postal Bulletin revisions through September 29, 2005).



                                                        4
Headquarters Cellular Services                                                                           IS-AR-07-011



Our review and analysis of invoices for pagers over a 12-month period revealed
opportunities for the Postal Service to save money. We analyzed pager usage by
calling 184 of 392 pagers and providing a callback number. Based on the responses
received over a 7-day period, 27 percent of pager users returned our call and
73 percent did not. We determined the overall savings based on the nonresponse rate
by applying the average monthly pager cost to the overall pager universe and projecting
it over 24 months.7

The pager analysis identified in the OIG draft report Audit of Cellular Services, dated
March 20, 2007, showed 93 percent of pagers were not being used. In addition, Postal
Service management agreed that pagers are obsolete in most instances, which is why
they did not include them in the management and monitoring contract. These
managers stated they believe they can eliminate 95 percent8 of pagers without
adversely affecting performance. The remaining pagers would be minimal, as would
their management and monitoring requirements. Based on these factors, we estimate
the Postal Service could save $122,772. This represents funds put to better use that
we will report in our Semiannual Report to Congress.

We also noted that some pagers the Postal Service identified had been turned off prior
to the audit. We commend the Postal Service for this action and estimate it will save
$15,688 over a 3-year period.9 We will not attribute this savings to the OIG in this
report.

Recommendation

We recommend the Vice President, Chief Technology Officer, direct the Manager,
Telecommunication Services, to:

    1. Eliminate the unused pagers this audit identified.

Management’s Comments

Management agreed with our recommendation and monetary impact of $122,772
representing funds put to better use. Management stated that pagers not being utilized
should be eliminated from the Postal Service inventory. The Postal Service plans to
eliminate these pagers by September 28, 2007. Management’s comments, in their
entirely, are included in the Appendix C of the report.




7
  We provide details of the cost savings analysis in Appendices A and B.
8
  Postal Service managers would like to leave 5 percent of the current pager inventory available for special
circumstances where other devices (cell phone/xxxxxxxxxx) are not appropriate. Examples given include
geographical areas where other devices prove unreliable.
9
  Estimated savings include 1 year for savings achieved during the audit period and projecting 2 years into the future.




                                                           5
Headquarters Cellular Services                                                   IS-AR-07-011



Recommendation

We recommend the Vice President, Controller, and the Vice President, Chief
Technology Officer, direct the area offices, in coordination with the Manager,
Telecommunication Services, to:

   2. Reassess current needs for the remaining pagers in the Postal Service inventory
      and eliminate unnecessary devices.

Management’s Comments

Management agreed with our recommendation and monetary impact. Management
stated that paging technology is fast becoming obsolete and, in most cases, can and
will be eliminated. The Postal Service plans to complete the reassessment of pagers by
November 30, 2007.

Evaluation of Management Comments

Management’s comments are responsive to recommendations 1 and 2, and actions
planned should correct the issues identified in the finding.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the follow-
up tracking system until the OIG provides written confirmation that the recommendation
can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Gary C. Rippie, Director,
Information Systems, or me at (703) 248-2100.

 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: H. Glen Walker
    Harold E. Stark
    Gregory D. Larrabee
    Larry K. Wills
    Warren Schwartz
    Deborah A. Kendall


                                            6
Headquarters Cellular Services                                                                      IS-AR-07-011



                                              APPENDIX A

             FUNDS PUT TO BETTER USE FOR A 2-YEAR PERIOD

                                                                      Funds Put To Better Use
                    Pagers                                             2 Years In The Future
 Savings based on the percentage of pagers
                                                                                  $ 92,206
 called with no response: base case10
 Additional savings attributable to eliminating
 95 percent of all pagers (difference between                                       30,566
 base case and 95 percent of all)
 Total Funds Put To Better Use                                                   $122,772

We also note the additional savings attributable to Postal Service’s action to eliminate
26 pagers prior to our audit. We present that savings based on a 3-year period (1 year
already achieved during the period audited plus the 2 future years assumed above):


                  SAVINGS ATTRIBUTABLE TO POSTAL SERVICE ACTIONS

                                                                                           Total Postal
                                 Audit Period                                            Service Initiated
       Pagers                      Savings                   Future Savings                  Savings
Pagers identified
and turned off prior
                                      $5,229                      $10,459                      $15,688
to audit analysis
period




10
  Base case represents the analysis from our sample universe that was tested by calling each pager to determine
use or non-use.



                                                        7
Headquarters Cellular Services                                                            IS-AR-07-011



                                                   APPENDIX B

               METHODOLOGY AND PROJECTIONS FOR THE AUDIT OF
                HEADQUARTERS CELLULAR SERVICES AND DEVICES
       The billing information we received covered the period December 1, 2005, through
       November 30, 2006. However, some pagers had fewer than 12 months of use
       during that period. To calculate funds put to better use, we required an amount that
       was equivalent to a full year of use. We developed 1-year costs for all pagers using
       the steps below.

                    1. We sorted pagers into service provider groups, using the area code as
                       an indicator when no provider was listed in the data.

                    2. For each pager in service for some part of the year, we extrapolated
                       the cost for a full year based on the known monthly amounts and on
                       comparison to “matching” pagers for the same provider.

                    3. For purposes of constructing a “typical” year, we omitted charges that
                       appeared to be one-time charges (for example, anomalous charges,
                       such as for lost pagers, were not part of the average pager costing
                       analysis).

                    4. For pagers with no billing information, we applied the average available
                       billing information for the same provider. This method applied to those
                       known to have been discontinued before the audit started and those
                       considered being in service because of no indication of earlier
                       termination.

                    5. We included the sales tax amounts where listed. This applied to a
                       subgroup of the 800-series (toll free)11 phone numbers.

                    6. For pagers that could not be matched to any provider billing
                       information, we applied the average of the known provider groups.
                       When the number was known to be an 800-series number, we used
                       the average prices for 800-series phone numbers from the other
                       providers. For 130 pagers for which we had no details at all (including
                       telephone numbers), we applied an overall average of the known
                       billing amounts.




11
     Phone numbers in the 800 series are those with area codes 800, 888, 866, etcetera.



                                                           8
Headquarters Cellular Services                                                 IS-AR-07-011



   We also summarized the results of our pager usage testing using the following
   categories:

               1. Pagers tested and considered to be in use: called and received call-
                  back.

               2. Pagers tested and considered not to be in use: called and did not
                  receive call-back.

               3. Pagers not tested – incomplete: not called because of incomplete
                  telephone information (such as missing the personal identification
                  number) or because testing was stopped early.

               4. Pagers not tested – terminated: not tested because service terminated
                  prior to start of audit, as indicated by service termination date
                  information from service provider, billing information that had a single
                  negative correcting entry in October 2005, or bills containing a single
                  entry that appeared to be unrelated to a monthly charge.

Finally, we determined the number of pagers (Table 1) and total costs (Table 2) for
pagers in each category, by provider, using the annualized costs.

                                     Table 1. Pager Counts
                                          Pager Count by Category
                                                  Not called: Not Called:
                                     Called and Incomplete     Service
                 Called and           Did Not    Information Terminated
   Service       Received             Receive     or Testing    Before
   Provider      Call-Back           Call-Back     Stopped      Audit       Total
 xxxxxxx                 19                  13             7           0           39
 xxxxxx                   2                  24             6           7           39
 xxx
                            29               90           35          11        165
 xxxxxxxx
 Other                           0            7            4           8            19
 Additional
 pagers
 identified
 by the                                                 130                     130
 Postal
 Service: no
 details
 Total                      50              134         182           26        392




                                                  9
Headquarters Cellular Services                                               IS-AR-07-011



                                     Table 2. Annual Costs

                             Pager Annual Usage Cost by Category
                                         Not Called: Not Called:
                             Called and Incomplete     Service
                 Called and    Did Not   Information Terminated
  Service        Received      Receive    or Testing    Before
  Provider       Call-Back    Call-Back    Stopped      Audit              Total
xxxxxxx              xxxxxxx      xxxxxx       xxxxxx          xx           xxxxxx
xxxxxx                   xxx       xxxxx        xxxxx      xxxxx              xxxxx
xxx
                        xxxxx           xxxxxx          xxxxx    xxxxx       xxxxxx
xxxxxxxx
Other                            x       xxxxx          xxxxx    xxxxx        xxxxx
Additional
130 pagers
identified
                                                       xxxxxx                xxxxxx
by the
Postal
Service
Total                  $9,336          $23,248        $32,033   $5,230     $69,847
                         29%              71%

   Finally, we calculated the estimated annual savings to be achieved by discontinuing
   pagers:

               1. We noted that the percent of pagers in use — out of those tested —
                  was similar using the pager counts (27 percent) and the dollar amount
                  (29 percent) to calculate the ratio. We chose to perform savings
                  allocation computations using ratios based on the dollar amounts as
                  shown in Table 2 above.

               2. We determined base case cost savings as the sum of (1) $23,248 for
                  pagers tested and determined not to be in use and (2) $22,855 for
                  71 percent (100 percent minus 29 percent) of the $32,033 for pagers
                  not tested because of incomplete information or because testing
                  stopped early. The total base case cost savings is $46,103 per year.

               3. We determined the potential cost savings would be $61,386 if the
                  Postal Service eliminates 95 percent — rather than just 71 percent —
                  of the pagers.

   We noted management already realized $5,229 of savings for 1 year by eliminating
   26 pagers prior to the audit test period.




                                                 10
Headquarters Cellular Services                        IS-AR-07-011



                  APPENDIX C. MANAGEMENT’S COMMENTS




                                 11
Headquarters Cellular Services        IS-AR-07-011




                                 12
